No. 20-875

 

In THE
Supreme Court of the United States

SoK KONG, TRUSTEE FOR NEXT-OF-KIN OF
Map KONG, DECEDENT,

Petitioner,
v.

CITY OF BURNSVILLE, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

MOTION FOR LEAVE TO FILE AND
BRIEF OF NATIONAL POLICE
ACCOUNTABILITY PROJECT AS
AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
3,620 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 261 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 18, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
